         Ii

         '4                                  NATIONAL SCIENCE FOUNDATION
          :                                   OFFICE OF INSPECTOR GENERAL


         1
         $1
         11
                                                OFFICE OF INVESTIGATIONS

                                   CLOSEOUT MEMORANDUM

         II
TO: AIGI        File Number: I97050023                                           Date: 02 March 2002
         Ib


         il
Subject: Closeout Memo                                                                     Page 1 of 1


         /I
      There was no closeout written at the time this case was closed. The following information was
      exd-acted fiom the file in conformance with standard closeout documents.
         jP



      04office was informed that the subject' was alleged to have committed illegal actions.            We
      redkived information fiorn an FBI report that the subject, an OIG employee, had been arrested in July
       1995 for possession of marijuana and paraphernalia. The subject received probation before
         '1
      judgment   for the offense, but answered "no" on her Declaration of Federal Employment to the
      qu8stion about her ever being put on probation. The subject's supervisor and the OIG administrative
      he4d decided to allow the subject to resign, effective June 30, 1997.

      ~ c $ o r d i nthis
                      ~ l ~case is closed.
          I

          I
          I

          i




          f



          t


          I
          I
          I




          L
         .*


         rl
         It
                  Prepared by:                        Cleared by:

                Agent:            Attorney:         Supervisor:     AIGI
   Name:,
          I
          t
          I
 Signature,&
    date: I
         11
      OIGP2-2
